No.

IN THE
SUPREME COURT OF THE UNITED STATES

Dimitri Rozenman - PETITIONER
vs.
David Shinn, et al. - RESPONDENT(S)
PROOF OF SERVICE

I, T)//r\/£z( fca'zs.fvmflrJ

, do swear or declare that on this date,
, 2020, as required by Supreme Court Rule 29 I have
\TuL\r Z.&
f
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
William S. Simon, Assistant Attorney General
Criminal Appeals Section, 2005 N. Central Ave.
Phoenix, AZ 85004-1580
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

JuLylF , 2020.

(Signature)

22

